                 U.S. Department of Energy
                 Office of Inspector General
                 Office of Audits and Inspections




AUDIT REPORT
Management of Selected Advanced Research
Projects Agency-Energy Projects




 OAS-M-14-08                        August 2014
                                   Department of Energy
                                     Washington, DC 20585

                                          August 6, 2014


MEMORANDUM FOR THE ACTING DIRECTOR FOR ADVANCED RESEARCH
               PROJECTS AGENCY-ENERGY


FROM:                     George W. Collard
                          Assistant Inspector General
                            for Audits
                          Office of Inspector General

SUBJECT:                  INFORMATION: Audit Report on "Management of Selected
                          Advanced Research Projects Agency-Energy Projects"

BACKGROUND

The Department of Energy's (Department) Advanced Research Projects Agency-Energy (ARPA-E)
was created in 2007, as part of the America COMPETES Act. ARPA-E focuses exclusively on
high-impact innovations designed to translate science into breakthrough technologies that allow for
genuine transformation in the way we generate, store and utilize energy. Funding is awarded
through cooperative agreements to recipients ranging from start-up companies to established
corporations, and to institutions of higher education. Every recipient is statutorily required to share
in the overall costs of their project by contributing a percentage of the total project costs. Cost-
share can be in the form of cash or in-kind contributions. In 2009, the American Recovery and
Reinvestment Act of 2009 provided $400 million to ARPA-E to launch its first projects. To date,
ARPA-E has funded over 362 potentially transformational energy technology projects.

Given the importance of ARPA-E's mission and its short history, we initiated this audit to
determine whether selected ARPA-E projects were being effectively and efficiently managed.

RESULTS OF AUDIT

We found that ARPA-E had generally established and implemented project management
controls. Through significant involvement with project recipients, ARPA-E established project
milestones, monitored progress, and reviewed progress reports and requests for project expense
reimbursements. While such controls appeared to be generally effective, our testing revealed
that two recipients had failed to obtain required audits and one of them had incurred questionable
project costs.

Questionable Labor and Indirect Expenses

We identified approximately $547,000 in questionable labor and indirect expenses claimed by
one of the eight recipients we evaluated. The recipient was awarded about $6.6 million for a
3-year project that ended in November 2013 and was required to provide 20 percent in cost-share,
bringing the total project cost to approximately $8.3 million. In total, we questioned about
$547,000 in project costs claimed by this recipient, who was reimbursed about $437,600
(80 percent). We found that the recipient:

    •   Claimed about $424,000 in questionable project costs consisting of in-kind cost-share in
        the form of labor, fringe and indirect expenses. The recipient claimed about $171,000 as
        in-kind labor based on the difference between below-market rates paid to five senior
        team members working on the project and market rates paid to other internal personnel
        with comparable positions. Specifically, in December 2011, the recipient began
        claiming in-kind labor for certain project personnel as cost-share back to the beginning
        of the award period despite the fact that the recipient's original agreement with ARPA-E
        called for cash as its contribution. The recipient asserted that the five employees elected
        to receive a lower salary level to ease the cash strain on the business. During the period
        when the recipient was claiming the salary difference as in-kind cost-share, it had paid
        the selected project personnel about $213,000 and claimed an additional, unpaid
        difference of about $171,000 as in-kind cost-share. The recipient also claimed fringe
        and indirect expenses specific to these in-kind wages in the amounts of about $39,000
        and $214,000, respectively, as cost-share contributions.

        According to ARPA-E, although the recipient's Certified Public Accountant (CPA) had
        discussed this proposed cost-share arrangement with an ARPA-E Support Contractor, the
        ARPA-E Contracting Officer was not made aware of these discussions by its Support
        Contractor, and subsequently this practice was not reviewed or approved by ARPA-E.
        Further, the recipient failed to specifically inform ARPA-E that it intended to modify
        its cost-share charges on subsequent invoices. After we informed ARPA-E officials
        that the recipient was using in-kind labor and related indirect and fringe expenses as part
        of its cost-share contribution, ARPA-E determined these amounts to be potentially
        unallowable and is working with the recipient to recover the Federal share of these costs.

    •   Claimed about $49,000 in other questionable indirect expenses. Specifically, the
        recipient's indirect cost pool included depreciation expenses from assets purchased with
        ARPA-E and other Government agency funding. These assets had been paid for with
        Federal dollars, and as such, inclusion in the cost pool and allocation to the ARPA-E
        project of depreciation expenses by means of the indirect rate amounted to double
        reimbursement. Federal regulations state that no final cost object shall have allocated to
        it as an indirect cost, any cost that has been included as a direct cost of that or any other
        final cost object. The overall effect of the inclusion of unallowable depreciation expense
        in the cost pool inflated the indirect costs by about $49,000.

In addition, we could not reconcile the recipient's actual indirect expenses to those claimed to the
award. The recipient's provisional indirect rate used to allocate the indirect cost pool among
several projects exceeded the rate at which indirect expenses were actually incurred by the
company over the course of the project. While the use of a provisional indirect rate is a standard
business practice in Government awards, this resulted in the recipient being reimbursed about
$74,000 more than actual incurred indirect expenses. Although the project was terminated by
mutual agreement in November 2013, ARPA-E stated that the award will remain open until

                                                 2
ARPA-E has been fully reimbursed for the Federal share of all questioned costs identified in this
report. Instead of waiting for the award close-out process, when recipients' provisional indirect
rates are normally reconciled to their actual indirect costs, ARPA-E has insisted that the recipient
reconcile the difference between the rates before the close-out process is initiated. Overall, this
is a standard ARPA-E/Department practice and is designed to help ensure that the Government is
reimbursed when funds are owed by a recipient.

Audit Requirements

ARPA-E had not always ensured that recipients obtained required audits. Federal regulations
require that any recipient that expends $500,000 or more in a given year under Federal awards
must have an audit conducted by an independent auditor. The audits are intended to determine
whether the recipient has an internal control structure that provides reasonable assurance that it is
managing awards in compliance with Federal laws and regulations and the terms and conditions
of the awards. However, we found that two of the eight recipients, including the previously
discussed recipient that had claimed the $547,000 in questionable expenses, had not obtained the
required audits.

Contributing Factors

We found that the issues we observed occurred for a variety of reasons. With respect to the
questionable in-kind cost-share contributions, it appears that there had been a misunderstanding
and a lack of communication between ARPA-E and the recipient as to the final position or
determination regarding allowability of such cost-share methods. Prior to claiming in-kind labor
as a component of its cost-share, the recipient's CPA had contacted an ARPA-E Support
Contractor to determine whether the recipient's in-kind labor calculation method, the difference
between below-market rates paid to project employees and rates paid to other comparable internal
employees, would be allowable. The recipient's CPA and the ARPA-E Support Contractor
exchanged several emails and had a telephone conversation regarding the recipient's proposed in-
kind cost-share. In an email to the ARPA-E Support Contractor summarizing the CPA's
understanding of the telephone conversation, the CPA expressed belief that such in-kind cost-
share would be allowed by ARPA-E. After this email, however, there was no further
communication from the recipient regarding the proposed in-kind cost-share, no communication
between the ARPA-E Support Contractor and the Contracting Officer, or any written
authorization from ARPA-E allowing the cost-share. In spite of this, the recipient began
claiming the difference in market and below-market compensation as in-kind cost-share.
Although the recipient's claims specifically identified cost share for in-kind labor, in-kind fringe
benefits, and in-kind indirect costs, ARPA-E did not identify or disallow the inappropriate
charges before settling the claims.

We also found that, while the recipient asserted that it had been unclear on how the depreciation
expense should be allocated in its cost pool for assets purchased with Federal funds, the recipient
had received previous grants from another Federal agency, an experience which, in our opinion
should have alerted it that such charges were duplicative and thus prohibited. Also, ARPA-E
provided online templates for calculating indirect rates, which were available at the time that this
recipient had calculated their rates. While the indirect rates had been audited twice by an
independent audit firm, the problems with the inclusion of the depreciation expenses had not been
identified.
                                                  3
The accumulation of indirect costs in excess of actual incurred indirect costs occurred because
the recipient's provisional indirect rate significantly varied with the rate that indirect costs were
actually incurred for most of the award. While the terms and conditions of the award state that
the Federal share of any costs reimbursed in excess of what was actually incurred must be paid
back at the end of the project, the recipient had not done so by the time our report was published.

Finally, concerning the two recipients without the required annual audits, ARPA-E did not have a
process in place to ensure required audits were requested, tracked and reviewed; nor had it
verified that this stipulated condition of the award had been carried out by these recipients.

ARPA-E Management Practices

ARPA-E had established project management practices for the recipients we audited. According
to ARPA-E policy, every Federal Program Director must conduct site visits with recipients every
other quarter and hold web conferences in between site visits. We found that these reviews had
been conducted and recipients noted how impressed they were with the technical knowledge and
support of the Program Directors. ARPA-E had also established milestones for each recipient's
project and failure to meet these milestones could lead to project termination, as demonstrated in
one project we reviewed, which was subsequently terminated. ARPA-E had required recipients
to provide numerous, detailed project reports and supporting documentation for direct project
expenses. This represents an improvement from our previous audit, The Advanced Research
Projects Agency-Energy (OAS-RA-11-11, August 2011), which found that recipients had not
always been required to submit detailed documentation.

In addition, ARPA-E promptly took actions to address the issues found during our audit.
Specifically, when we brought the questionable costs to the attention of ARPA-E officials, they
determined that these amounts were potentially unallowable based on Federal cost principles,
and are working to recover the Federal share of the identified questioned costs. ARPA-E officials
also notified us that they are in the process of updating guidance to explicitly state that awardees
may not include, as indirect costs, depreciation for equipment purchased with Federal funds.

Regarding the annual audit requirement, ARPA-E notified us that it was initiating a new process
to ensure annually required audits are tracked and reviewed by completing a software update in
its project management system. Officials stated that the new process will include notifications to
recipients of their obligation to have an audit performed in years that their spending exceeds
$500,000. The new audits section/module would also include documentation of management's
review of audit report results. ARPA-E also issued a notice to the two recipients identified in our
review without the annual audits to send completed audits to ARPA-E by April 30, 2014. To
date one recipient has submitted all required audits and the second recipient is working to
complete this action. Lastly, ARPA-E issued a courtesy email to all current ARPA-E for-profit
awardees about the audit requirement.

Impact and Path Forward

The success of the technologies that ARPA-E funds directly supports the goal of the Department
to transform our Nation's energy systems. Given the significance of this goal and the amount of
funding awarded to support these technologies, it is imperative that taxpayer dollars are spent as
efficiently and effectively as possible. Further, ARPA-E has a crucial role of managing these
                                                  4
projects and protecting the Federal Government from fraud, waste, and abuse. While ARPA-E
had taken several steps to address the issues, we found during our audit that additional
improvements are needed.

RECOMMENDATIONS

Based on the importance of the Department's mission and ARPA-E's key role within the
Department, we recommend that the Acting Director for ARPA-E direct Program officials to:

     1. Ensure that recipients seeking new in-kind cost-share are reminded that a written request
        must be submitted to the contracting officer for approval;

     2. Identify and distribute lessons learned relating to allowability of cost-share, depreciation
        expenses and indirect expenses;

     3. Implement a process to ensure that required audits of recipients' Federal awards are
        requested, tracked, and reviewed; and

     4. Obtain and review required audits for the two recipients mentioned in our report.

Additionally, we recommend that the contracting officer for the project:

     5. Resolve the questioned costs discovered during our review.

MANAGEMENT REACTION

Management concurred with the report's recommendations. ARPA-E has taken actions to address
Recommendations 1, 2 and 3 and is in the process of addressing Recommendations 4 and 5. To
address Recommendation 1, ARPA-E has published cost-share related "Frequently Asked
Questions" (FAQ) on its website and added a new clause to its financial assistance agreements to
require that recipients obtain written authorization from the ARPA-E Contracting Officer before
modifying cost-share contributions. To address Recommendation 2, ARPA-E has published
informational FAQs on its website and incorporated this information into training materials
designed for recipients. ARPA-E updated its program management system to address
Recommendation 3. The update enables ARPA-E to track which for-profit recipients must submit
required audits, and allows recipients to electronically submit copies of required audit reports.
ARPA-E has partially addressed Recommendation 4 by obtaining required audit reports from one
of the two recipients and is in the process of obtaining the required audit report from the other
recipient. To address Recommendation 5, the ARPA-E Contracting Officer has notified the
specific recipient and is seeking reimbursement of all questioned costs we identified.

AUDITOR COMMENTS

The Department's corrective actions, both planned and taken, are responsive to our
recommendations.

Attachments


                                                 5
cc: Deputy Secretary
    Chief of Staff




                       6
                                                                                      Attachment 1


                       OBJECTIVE, SCOPE AND METHODOLOGY

OBJECTIVE

The objective of the audit was to determine whether selected Advanced Research Projects
Agency-Energy (ARPA-E) projects were being effectively and efficiently managed.

SCOPE

This audit was performed between September 2013 and August 2014, at the Department of
Energy's (Department) Headquarters in Washington, DC. In addition, we conducted reviews of
eight projects both on-site and remotely in Massachusetts and California. The audit included a
review of $21 million of the $26 million in costs incurred by the eight recipients through
September 2013. The audit was conducted under Office of Inspector General Project Number
A13HQ053.

METHODOLOGY

To accomplish the audit objective, we:

    •   Obtained and reviewed relevant laws and regulations related to the financial assistance
        awards administration.

    •   Conducted interviews and meetings with ARPA-E officials.

    •   Judgmentally selected eight ARPA-E funding recipients in Massachusetts and
        California. This selection was based on award amounts, ARPA-E programs, types of
        entities, and geographical location. Because we used a judgmental sample, the results
        cannot be projected over the entire population.

    •   Obtained access to the Department's Strategic Integrated Procurement Enterprise System
        (STRIPES) and ARPA-E's Energy Program Information Center (ePIC) system and
        reviewed individual award documentation for each project.

    •   Analyzed the implementation of financial assistance requirements as prescribed by the
        terms and conditions of the selected awards.

    •   Interviewed ARPA-E Program Directors that oversee the selected recipients reviewed.

    •   Reviewed invoices submitted for reimbursement and conducted testing of records for
        each selected recipient. We judgmentally sampled project expenses based on
        documentation that had been submitted to ARPA-E, the percentage of expenses in
        relation to overall costs, and cost categories. Because a judgmental sample was used,
        results cannot be projected over the entire population.

    •   Verified assets purchased for projects at the selected recipient locations.


                                                 7
                                                                                    Attachment 1



    •   Interviewed project personnel for each of the eight awards.

We conducted this performance audit in accordance with generally accepted Government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective. Accordingly, we assessed
significant internal controls and compliance with laws and regulations to the extent necessary to
satisfy the audit objective. In particular, we assessed the Department's implementation of the
GPRA Modernization Act of 2010 and determined that it had established performance measures
related to the Program. Because our review was limited, it would not necessarily have disclosed
all internal control deficiencies that may have existed at the time of our audit. Finally, we
conducted an assessment of computer-processed data relevant to our audit objective and
determined the data to be sufficiently reliable to achieve our audit objective.

ARPA-E management officials waived an exit conference.




                                                8
                                                                                    Attachment 2


                                      PRIOR REPORTS

Office of Inspector General

    •   Audit Report on The Advanced Research Projects Agency-Energy (OAS-RA-11-11,
        August 2011). The audit found that the Advanced Research Projects Agency-Energy
        (ARPA-E) had established criteria for awards selection that was consistent with mission
        objectives. The audit found, however, that ARPA-E had not established a systematic
        approach to ensure Technology Transfer & Outreach was meeting the requirements of
        the America COMPETES Act. In particular, ARPA-E had not required recipients to
        expend a percentage of their awards on Technology Transfer & Outreach. ARPA-E also
        had not drafted, and in some cases approved, policies in a number of areas including
        TT&O; monitoring and oversight of awardees; termination of nonperforming awards;
        and invoice review. The report also identified $280,387 in questionable costs at two of
        the three recipient sites visited. ARPA-E was unaware that recipients had incurred the
        types of costs that were questioned because they did not require submission of
        transaction details as part of their invoice review process.

Government Accountability Office

    •   Audit Report on DEPARTMENT OF ENERGY Advanced Research Projects Agency-
        Energy Could Benefit from Information on Applicants' Prior Funding (GAO-12-112,
        January 2012). The Government and Accountability Office (GAO) found that ARPA-E
        had taken steps to identify and understand how funding provided to its award winners
        from the private sector related to the projects proposed for ARPA-E funding. GAO's
        review suggested that most ARPA-E projects could not have been funded solely by
        private investors. Private venture capital firms told GAO that, among other
        considerations, they generally did not invest in projects that could not be commercialized
        in less than 3 years. Additionally, GAO found that few eligible applicants that were not
        selected for award by ARPA-E subsequently secured private funding. Finally, GAO
        found that ARPA-E officials had taken steps to coordinate with other Department of
        Energy offices to avoid duplication.




                                               9
                      Attachment 3


MANAGEMENT COMMENTS




        10
     Attachment 3




11
                                          FEEDBACK

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We aim to make our reports as responsive as possible and ask you to consider sharing
your thoughts with us.

Please send your comments, suggestions and feedback to OIGReports@hq.doe.gov and include your
name, contact information and the report number. Comments may also be mailed to:

                                Office of Inspector General (IG-12)
                                      Department of Energy
                                     Washington, DC 20585

If you want to discuss this report or your comments with a member of the Office of Inspector
General staff, please contact our office at (202) 253-2162.
